June 2005
Report No. 05-019


FDIC’s New Financial Environment
(NFE) Testing




             AUDIT REPORT
           `                                                                                        Report No. 05-019
                                                                                                           June 2005

                                   FDIC’s New Financial Environment (NFE) Testing
                                   Results of Audit

                                   The FDIC has developed a rigorous multi-stage test strategy and schedule for the New
                                   Financial Environment (NFE) to ensure it will function as designed and meet users’
 Background and Purpose
                                   needs. The FDIC reported that most test activities considered critical to final decisions
 of Audit                          had been completed before deployment of NFE core PeopleSoft financial modules on
                                   May 2, 2005. However, KPMG found that improvements were needed in the various
 On December 10, 2001, the         testing phases of NFE, such as performing sufficient production simulation tests,
 FDIC’s Board of Directors         providing evidence of verification for month- and year-end closings, ensuring adequate
 approved the purchase and         documentation for problem identification and resolution, and independently verifying
 implementation of a               the accuracy and completeness of tests performed for business processes. As a result,
 commercial-off-the-shelf          financial management system integrity and financial reporting risks may not have been
 solution to support an            mitigated to an acceptable level at the time KPMG completed its audit work.
 enterprise-wide financial
 environment for the FDIC. In      We provided details of the findings as they were identified to the Division of Finance
 October 2002, the FDIC            (DOF) and NFE project management team to facilitate timely corrective action and
 contracted with Accenture LLP     response where appropriate. Also, in order to facilitate corrective action, KPMG
 to assist the Corporation in      assigned a risk ranking for each condition found in system integration testing, quality
 replacing its financial systems   assurance testing, and user acceptance testing based on defined risk management
 with a PeopleSoft financials      assessment criteria for the NFE project.
 solution. Scheduled
 deployment of the New
                                   Recommendation and Management Response
 Financial Environment (NFE)
 core financial system was to
                                   We recommended that DOF and the NFE project management team review the risks
 originally occur on July 1,
                                   identified and develop a risk resolution and action approach in accordance with the risk
 2004. In June 2004, the Board
                                   mitigation procedures outlined in the NFE risk management plan.
 approved the business case to
 re-baseline the NFE project
                                   FDIC management concurred with the recommendation and provided a risk assessment
 with an additional cost of $18
                                   matrix that summarizes the risk resolution and action approach for the conditions
 million and to establish a
                                   discussed in the report. Management also responded that sound management processes
 revised deployment date for
                                   were instrumental in mitigating risks and its control framework afforded a high degree
 the core financial systems of
                                   of confidence that a “go live” decision was appropriate under the circumstances.
 mid 2005. The NFE Principals
                                   Management’s corrective actions effectively addressed our findings and
 and the NFE Steering
                                   recommendation, which is considered closed.
 Committee are responsible for
 overseeing NFE project
 activities.

 The audit objective was to
 determine the adequacy of the
 NFE test processes and the
 defect and change management
 processes in resolving
 problems identified during
 NFE testing. The report was
 prepared by KPMG LLP under
 a contract with the OIG to
 provide professional audit
 services.

To view the full report, go to
www.fdicig.gov/2005reports.asp     V-Model of Multi-stage Testing
                                   Source: DOF Corporate Applications Testing Strategy, Version 2, 3/15/2004.
Federal Deposit Insurance Corporation                                                                Office of Audits
801 17th Street NW, Washington, DC 20434                                                Office of Inspector General




DATE:                                  June 6, 2005

MEMORANDUM TO:                         Fred S. Selby
                                       Director, Division of Finance



FROM:                                  Russell A. Rau [Electronically produced version; original signed by Stephen M. Beard]
                                       Assistant Inspector General for Audits

SUBJECT:                               The FDIC’s New Financial Environment (NFE) Testing
                                       (Report No. 05-019)

Enclosed is a copy of the subject report prepared by KPMG LLP under a contract with the Office
of Inspector General (OIG). Please refer to the Executive Summary for the overall audit results.
The firm’s report is presented as Part I of this document.

The report concludes that the FDIC had developed a rigorous multi-stage test strategy and
schedule for the NFE to ensure it would function as designed and meet users’ needs. However,
the report includes a recommendation that the Division of Finance and the NFE project
management team review and develop a risk resolution approach for risks that may not have
been mitigated to an acceptable level where aspects of testing needed improvement.

A summary and our evaluation of your response, the response in its entirety, and the status of the
recommendation are contained in Part II of this report. The response adequately addressed the
recommendation in the report. We consider the recommendation to be resolved, dispositioned,
and closed as the agreed-upon corrective action has been implemented and determined to be
effective.
                                Table of Contents



Part I:

   Report by KPMG LLP
   The FDIC’s New Financial Environment (NFE) Testing   I-1


Part II:
   Corporation Comments and OIG Evaluation              II-1
   Corporation Comments                                 II-2
   Management Response to Recommendation                II-9
FDIC’s New Financial Environment (NFE) Testing


              Prepared for the
    Federal Deposit Insurance Corporation
         Office of Inspector General
      Part I

Report by KPMG LLP
                              TABLE OF CONTENTS

I.     EXECUTIVE SUMMARY                                                       3

Results of Audit                                                               3

Recommendation                                                                 5

II.    BACKGROUND                                                              5

Project Scope                                                                  6

Project Test Strategy and Results                                              7

Managing Test Activities                                                       8

III.   DETAILED FINDINGS                                                       8

Finding 1: Production Simulation Tests Needed                                  8

Finding 2: Effectiveness of Accounting Verifications for Month- and Year-End
Closings                                                                       9

Finding 3: Defect Consolidation, Traceability, and Documentation               11

Finding 4: Effectiveness of Test Activities Performed                          12

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY                                  15

APPENDIX B: APPLICABLE STANDARDS AND GUIDANCE                                  17

APPENDIX C: NFE TEST STRATEGY AND PROCESSES                                    21

APPENDIX D: RISK ASSESSMENT APPROACH                                           26

APPENDIX E: ACRONYMS                                                           29

TABLE:
Summary of Findings                                                                4

FIGURES
Figure 1: V-Model                                                              21
Figure 2: Risk Assessment Matrix                                               27




                                            I-2
I.     Executive Summary

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG)
contracted with KPMG LLP to provide professional audit services. A task order issued
under the contract called for KPMG to audit and report on the effectiveness of the FDIC’s
New Financial Environment (NFE) system development test activities. This audit is one
in a series of OIG audits of the FDIC’s system development initiatives on the NFE
project.

The objective of the audit was to determine the adequacy of the NFE test processes and
the defect and change management processes in resolving problems identified during
testing. Our audit addressed Systems Integration Testing (SIT), User Acceptance Testing
(UAT), and Configuration and Quality Management Staff (CQMS) activities, which are
described in the Background section of this report. A detailed discussion of our audit
objective, scope, and methodology is provided in Appendix A of this report.

KPMG evaluated test activities according to software verification and validation
guidelines established by the National Institute of Standards and Technology (NIST), the
Capability Maturity Model Integration (CMMI) for systems engineering, and Joint
Financial Management Improvement Program (JFMIP) for government financial systems,
which are discussed in Appendix B. Additional guidelines considered in this review
include those published by the Government Accountability Office (GAO) and the Office
of Management and Budget (OMB) related to the implementation of the Federal Financial
Management Improvement Act (FFMIA). KPMG conducted its work in accordance with
generally accepted government auditing standards from November 1, 2004 through
March 8, 2005.

Results of Audit

The FDIC had developed a rigorous multi-stage test strategy and schedule for NFE to
ensure it will function as designed and meet users’ needs. The FDIC reported
considerable progress in completing most test activities considered critical to final
decisions on the deployment of NFE core PeopleSoft financial modules scheduled for
May 2, 2005. However, KPMG found that improvements were needed in SIT, UAT, and
CQMS activities. As a result, financial management system integrity and financial
reporting risks may not have been mitigated to an acceptable level at the time KPMG
completed its audit work.

We provided details of these findings as they were identified to the Division of Finance
(DOF) and NFE project management team to facilitate timely corrective action and
response where appropriate. Each finding is summarized in the table on the next page for
the test areas reviewed, and KPMG has assigned a risk ranking based on defined risk
management assessment criteria for the NFE project.




                                           I-3
    Summary of Findings
                                                                      Test Activity                                  Riska
Finding                Condition                   Systems           Configuration       User             High      Medium        Low
                                                   Integration       Quality             Acceptance
                                                   Testing           Management          Testing
                                                                     Staff
1         Inadequate user training.                                                            √             √
          Inadequate chart of accountb tests.                                                  √             √
          Business processes were not
          tested sequentially from start to                                                    √             √
          finish without interruption.
          UAT did not include all
                                                                                               √             √
          production simulation testing.
2         Documented evidence did not
          exist for accounting-based
          verifications performed for                     √                                                              √
          month- and year-end closings
          during SIT.
          UAT month and year-end tests
          planned do not provide
                                                                                               √             √
          requirements for accounting
          verifications and reconciliations.
          Scripts for identifying or
          researching un-posted
                                                          √                                                              √
          transactions and posting errors
          were omitted.
          CQMS did not perform an
          independent review of the month-                                  √                                            √
          end and year-end test processes.
          Independent test activities
          excluded UAT validation                                                                                        √
          activities.
3         A centralized and controlled
          defect tracking system has not                  √                                    √                         √
          been established.
4         UAT documentation is not
          effectively organized to
          independently verify the accuracy
                                                                                              √
          and completeness of tests                                                                                                √
          performed for NFE business
          processes.
          Test activities and scenarios were
          missing from sampling test
                                                                                               √                         √
          scriptsc applicable to compliance
          requirements of the FFMIA.
          There are no plans at this time for
          testing about 50-70 customized
          Financial Management System                                                          √                         √
          (FMS) reports currently generated
          by the Walker General Ledger.d
          a. See Appendix D for the risk management ranking criteria applied.
          b. The Chart of Accounts is a listing of all the accounts in the general ledger; each account is accompanied by a
          reference number. To set up a chart of accounts, the various accounts to be used by the business need to be defined.
          c. A test script is a test designed for a specific business process activity. Part of this design includes applicable
          scenarios representing methods for accomplishing a given activity.
          d. The current financial management system is referred to as the Walker Interactive system.


                                                                    I-4
Recommendation

KPMG recognized that many of the issues identified and previously reported to the FDIC
may have impacted NFE-scheduled implementation and deployment activities.
Therefore, KPMG recommended that the Director, DOF, and the NFE project
management team review the risks identified and develop a risk resolution and action
approach in accordance with the risk mitigation procedures outlined in the NFE risk
management plan.

II.    Background

On December 10, 2001, the FDIC’s Board of Directors approved the purchase and
implementation of a commercial-off-the-shelf (COTS) solution to support an
enterprise-wide, integrated financial environment for the FDIC. The decision was based
on the need to modernize the FDIC’s complex and aging legacy financial system. The
current financial management system, referred to as the Walker Interactive system, is
characterized as a system with non-integrated components feeding into core financial
management system (FMS) functions that requires significant reconciliation activity.
Substantial manual processes and significant staff resources from the FDIC’s DOF and
Divisions of Insurance and Research and Resolutions and Receiverships (DRR) are
needed to achieve an unqualified opinion on the Corporation’s financial statements.
Additionally, the current system’s functionality is limited and may preclude
infrastructure upgrades.

The FDIC contracted with Accenture LLP (Accenture) in October 2002 to assist the
Corporation in replacing its financial systems with a PeopleSoft financials solution, a
COTS product. DOF and the Division of Information Technology (DIT) jointly managed
the project. The NFE project involves less than a 5-percent customization of the
PeopleSoft financial modules. The FDIC considers the re-engineering of its business
practices to be a critical factor in achieving the expected benefits of the NFE in terms of
streamlining business processes and avoiding the high-maintenance costs associated with
software customization. The implementation of the core financial system was originally
scheduled to occur on July 1, 2004. In June 2004, the Board approved the business case
to re-baseline the NFE project with a revised implementation schedule and $18 million in
additional funding to support the project costs associated with evaluation of the new system
and changing business processes, renovation of legacy systems, new security and quality
assurance mandates, and a contingency fund. Under the revised schedule, the core
financial system was scheduled for implementation on May 2, 2005. The Budget
Formulation/Receivership Service Billing/Enterprise Warehouse component and the cost
management component were planned for implementation on July 1 and September 1,
2005, respectively.

The NFE Principals and the NFE Steering Committee are responsible for overseeing NFE
project activities. The NFE Principals group is composed of the Chief Financial Officer
(CFO) and the directors of the divisions most impacted by NFE implementation (DOF,
DIT, DRR, and the Division of Administration (DOA)). The Steering Committee
provides direct oversight and includes senior management representatives from DIT,
DRR, DOA, the Division of Supervision and Consumer Protection (DSC), and the Office

                                             I-5
of Enterprise Risk Management (OERM). The NFE project management team is
responsible for providing guidance and direction to all involved parties in these activities,
including the FDIC test coordinators, legacy and core test managers, FDIC NFE team
leads, Accenture test execution team, Accenture fix teams, and business area points of
contact.

Project Scope

The current NFE project timeline for deployment is separated into three components.
The first component calls for the deployment of core PeopleSoft financial modules in
May 2005. This involves significant changes to FDIC business processes, including:

•   Creating a new accounting structure to collect and track the required financial and
    cost management data.
•   Converting vendor registration and maintenance to the federal Central Contractor
    Registry (CCR) System.∗
•   Creating a central electronic repository for procurements and contracts.
•   Automating the procurement card system.
•   Increasing asset management functionality, including integration with purchase
    orders and payable vouchers.
•   Automating the capture of receipts and disbursement funds for more effective cash
    management.
•   Establishing automated workflow processes to simplify and streamline many paper-
    based processes.

Additionally, 25 systems will integrate into the NFE core modules primarily for the
General Ledger, Accounts Payable, and Supplemental Payment System modules. The 25
systems include 23 legacy systems and 2 new systems related to employee time and
attendance and legal information and case management. The NFE project management
team had identified the Payroll Bridge System (the “translator” of payroll processing
results from National Finance Center into the general ledger) and the Electronic Travel
Voucher System (travel reimbursements) as two legacy systems for which it was critical
that they both be operational at the same time that NFE is deployed.

The deployment of the second component, Budget Formulation/Receivership Service
Billing/Enterprise Warehouse, is targeted for July 1, 2005. The third component,
the Activity Based “Cost” Management module, is scheduled to be deployed by
September 1, 2005.




∗ The CCR is the primary vendor database for the federal government. The CCR collects, validates, stores,
and disseminates data in support of agency acquisition missions. Both current and potential government
vendors are required to register in CCR in order to do be awarded contracts by the government. Vendors
are required to complete a one-time registration to provide basic information relevant to procurement and
financial transactions. Vendors must update or renew their registration annually to maintain an active
status.

                                                   I-6
Project Test Strategy and Results

Effective test, defect handling, and change management processes provide a means of
mitigating significant system integrity issues that could impact a system’s future
operational state. Test process activities should ensure that all aspects of the new system
will function correctly, meet users’ needs, and work as intended in the system’s
operational environment. Federal standards and FDIC policy require the performance of
test verification and validation activities.

The FDIC had developed a rigorous multi-stage test strategy and schedule for NFE to
ensure that the system will function as designed and meet users’ needs (see Appendix C
for a detailed description of test processes). Key components of this test strategy critical
to final decisions on NFE deployment include SIT and UAT. Additionally, the FDIC had
established independent quality assurance testing for NFE that is performed by the
FDIC’s CQMS.
•   SIT ensures that all business functions perform as designed on an end-to-end basis
    across the NFE applications and platforms. SIT verifies that the application modules
    interact correctly within PeopleSoft financial modules, including all interfaces that
    send or receive transactional data to/from the NFE. Guidelines for this testing are
    based on the DOF Corporate Applications SIT Approach, dated June 10, 2004, and
    the NFE SIT Test Plan for Interfaces, dated June 18, 2004.

•   UAT is the final round of NFE testing. The purpose of UAT is to secure the
    agreement of all business process owners that (1) the PeopleSoft modules, as modified
    and configured, and (2) the impacted FDIC legacy application interfaces meet the
    business owners’ current stated business requirements when used in conjunction with
    processes and procedures developed by the business owners and the NFE business
    planning team. To accomplish these objectives, a three-pass testing strategy was
    used; pass one began December 1, 2004, and pass three testing ended March 31, 2005.
    On February 4, 2005, the FDIC reported that 14 of 16 NFE Phase I core business
    process areas had entered into the first pass of UAT with 77 percent of all planned
    scripts successfully completed.

CQMS performed quality assurance test activities over a 3-week period starting on
November 1, 2004. The scope of this review, as stated in the CQMS NFE Test Plan,
dated September 22, 2004, was to verify the effectiveness of the SIT performed against
NFE core financial modules and interfaces. Five of the 26 applications were tested on-
line, and the rest of the applications were inspected. CQMS performed the five on-line
tests on systems considered critical to NFE production, including the primary receivership
and subsidiary financial reporting system, Dividend Processing System, corporate human
resources systems, Electronic Travel Voucher processing system, and the FDIC Legal
Division’s principal information system. For inspections, CQMS placed reliance on
requirements functionality reviews that occurred for each application during SIT.




                                            I-7
Managing Test Activities

The NFE project management team manages test activities using test plans and results
documentation located in several data repositories. For example, NFE-related test
documentation is located in the FDIC’s Digital Library (FDL) and in an NFE project-
specific documentation tool, StarTeam. FDL is a corporate-wide documentation
management vehicle that publishes information throughout the FDIC. StarTeam,
designed for exclusive use by the NFE team, contains documents that are intended to
represent official software baseline configuration items. Upon completion of tests, signed
approvals are required from the tester, FDIC NFE Team Lead, and Business Area
Representative acknowledging that conditions tested work as designed.

Additionally, the NFE project also uses a data repository, referred to as TestDirector, to
separately track and record identified defects identified for a specific system and level of
testing. When a defect is determined to be a change in the baseline, a change request
must be completed and reviewed by the Change Control Board (CCB) for core NFE
modules for interface/legacy systems. Changes are made in accordance with a defined
and documented change management process for NFE core and legacy system interfaces.

III.     Detailed Findings

In the course of performing the NFE audit, KPMG provided DOF and the NFE project team
with detailed findings regarding NFE test activities. The findings are summarized in this
section of the report.

Finding 1: Production Simulation Tests Needed

Condition:

KPMG identified the following limitations during NFE UAT:

• users were not adequately trained,
• test scripts applied did not always test a representative number of chart of accounts
  that would be processed in a normal operational environment,
• business processes were not tested sequentially from start to finish without
  interruption as in a normal workflow process, and
• UAT does not include production simulation test activities.

Cause:

Time and schedule constraints were a contributing factor to the level of training provided.
According to NFE process leads for core NFE modules, the training documentation
provided detailed instructions related only to navigating through “vanilla” PeopleSoft
menus and screens without explaining: (1) the purpose of PeopleSoft menus and screens,
(2) their applicability to new FDIC business processes in adapting to NFE, and
(3) troubleshooting problems. Additionally, time and resource constraints driven by the
implementation schedule appear to have impacted the scope of tests employed, including
not allocating sufficient time for production-simulation testing prior to system
deployment. According to DOF and DIT officials involved in NFE project management

                                             I-8
oversight, users were involved in planning and creating test scripts for systematic formal
execution in UAT, which lessens the need for additional levels of testing.

Criteria:

Guidance for Software Verification and Validation processes in NIST Special Publication
500-234, Reference Information for the Software Verification and Validation Process,
and the CMMI state that the major objectives are to (1) comprehensively analyze and test
software during development to determine that the software correctly performs its
intended functions, (2) ensure that the software performs no unintended functions, and
(3) provide information about software quality and reliability. Where possible, validation
activities should be accomplished within the production environment. Additionally,
JFMIP financial system implementation guidance states that qualifications testing ensures
a certain level of compliance with government-wide requirements, but should be viewed
as “entry criteria.” Agencies should conduct supplemental testing to ensure that a
financial management system meets their specific requirements and to ensure adequate
system performance.

Effect:

User training issues and gaps in testing coverage increased the possibility that NFE may
not function as intended in its operational environment and that users may not be able to
carry out the new business processes in NFE. Without production simulation testing,
unanticipated results may not have been minimized to an appropriate level and may have
caused processing delays and incomplete or inaccurate data that affect financial
management reporting.

Level of Risk: High

Recommendations Provided to the FDIC for Consideration (January 26, 2005):
• Improve user training documentation for UAT and deployment activities to explain,
   where appropriate, the fields that should be completed; the fields’ applicability to new
   FDIC business processes in adapting to NFE; and how to troubleshoot problems.
• Perform unscripted user testing in the production environment to simulate “go live.”
   As a common practice, the FDIC should consider the following:
   o Provide sufficient time prior to deployment to take corrective actions where
       necessary.
   o Independently execute a few days’ transactions from the highest volume business
       days in the past year, and follow the new business processes and procedures.

Finding 2: Effectiveness of Accounting Verifications for Month- and Year-End
Closings

Condition:
Documented evidence did not exist for accounting-based verifications performed for
month- and year-end closings during SIT. Consequently, KPMG could not determine
from script plans or test results the validity of month- and year-end financial information
reported from the tests. Based on our review of the UAT schedule and SIT results, Asset

                                            I-9
Management was the only module for which reports were included as part of its month-
end closing process and there was evidence of reconciliation processes. KPMG also
noted that scripts on identifying or researching un-posted transactions and posting errors
were omitted from SIT.

In reviewing plans for the next level of month- and year-end tests in UAT, KPMG noted
that the test plans for UAT were similar to those for SIT, with the exception that users
were responsible for performing the tests. However, the test plans did not include
specific instructions to perform accounting verifications and reconciliations. UAT is
intended to be user-oriented; therefore, tests at this juncture should more closely resemble
month- and year-end based procedures that users will actually perform. Additionally,
CQMS stated in its Independent Test Plan for NFE that CQMS would not perform an
independent review of the month-end and year-end test processes. According to these
officials, this level of testing was outside the scope of system “integration-based”
requirements testing activities to perform against NFE core financial modules and
interfaces.

Cause:

The NFE project team had not developed formal accounting-based reconciliation test
plans for month- and year-end closings. Business process documents showed only how to
navigate through PeopleSoft system menus and screens. Draft user guide job aids and
checklists also did not address accounting verification and reconciliation procedures.

Criteria:

GAO and OMB guidelines for compliance with the FFMIA state that standards and
procedures should be established in maintaining financial system integrity. For month-
and year-end closings, such standards and procedures would include user procedures for
system performance data integrity validations, such as reconciliations between reports
produced and data sets within the system and the results of validity combination and
balance edits. GAO’s Standards for Internal Control in the Federal Government state
that internal controls and all transactions and other significant events need to be clearly
documented and maintained and should be readily available for examination in the form
of management directives, administrative policies, or operating manuals.

According to CMMI guidelines, defined and documented user-oriented procedures, when
part of a new integrated information system, are an essential component of the test
process to demonstrate that the system fulfills its intended use when placed in its
operational environment and meets user needs.

Effect:

Without month-end and year-end test processes that fully incorporate accounting-based
verifications and reconciliations, the FDIC may have lacked adequate assurance that
financial information would be recorded accurately and completely in the general ledger.
This posed significant operational risks that may have negatively impacted NFE system
integrity and financial reporting capabilities in production.

                                            I - 10
Level of Risk: High

 Recommendations Provided to the FDIC for Consideration (January 26, 2005):
•  Fully define in business process documentation and UAT, the detailed accounting-
   based verification and reconciliation procedures that are required.
• Simulate month-end closing by following accounting-based control and reconciliation
   procedures to provide assurance that users would be able to process a month-end
   closing completely and accurately in a timely manner.
• Perform separate year-end testing using a copy of the production database before
   executing the actual 2005 year-end process in the production environment. This
   database should include all the required patches and fixes for the year-end process.
   Year-end testing should include closing for all modules.
• Document detailed accounting-based test results during UAT scheduled for month-
   and year-end processing.


Finding 3: Defect Consolidation, Traceability, and Documentation

Condition:

A centralized and controlled defect tracking system had not been established to ensure
traceability to adequate documentation for the purpose of managing problem
identification and resolution. In addition, test processes did not provide for two-way
traceability of defects from their test origin to change requests, when applicable, and did
not require that necessary documentation required for defect resolution be retained.

Cause:

The defect tracking tool, TestDirector, is a relatively new application development tool
deployed in the last 6 months. Project time and resource constraints may have precluded
the NFE project team from fully implementing TestDirector functionality. Additionally,
defects relating to each interface or legacy system were managed by different business
process owners, and related documentation is maintained in separate locations. Also,
NFE process leads lacked adequate guidance in referencing test information to defect logs
and reports. Finally, change management procedures had not been adequately followed.

Criteria:

According to CMMI guidance, defect analyses should include assessing the impact of
defects, frequency of occurrence, similarity between defects, and the time and resources
needed to resolve the defects. Proper attention should be given to storage and retrieval
procedures so that data is available and accessible for analysis, possible reanalysis, or
documentation purposes. Additionally, change requests should address failures and
defects in the work products in assessing the impact that the change in addressing the
defect will have on the work product, related work products, schedule, and cost.

NFE change management guidance also states that changes to requirements made because
of defects should trace directly to the applicable defect reports.



                                                   I - 11
Effect:

Recurring defects were more difficult to identify, which may have impacted the ability to
determine in a timely manner their priority and root cause and method for resolution.
Software maintenance risks were also increased because of the inability to provide
specific test reference information in the defect logs. Moreover, tracing a change request
to a defect was difficult.

Additionally, a decentralized management and documentation approach could result in
inefficient retrieval or misplacement of important documentation. Delays in testing and
duplicated effort could have occurred if the scripts had to be retested to obtain the
necessary information for sign-offs.

Level of Risk: Medium

Recommendations Provided to FDIC for Consideration (February 17, 2005):
• Consolidate all the defects under one centralized repository to facilitate the tracking
   and monitoring of recurring defects going forward.
• Emphasize two-way traceability of defects from their test origin to change request
   documentation when applicable.
• Create a shared location to store UAT defect screen captures and test results instead of
   depending on users’ personal folders to improve documentation for defect problem
   resolution.


Finding 4: Effectiveness of Test Activities Performed

Condition:

NFE UAT documentation was not effectively organized to independently verify the
accuracy and completeness of tests performed for NFE business processes and did not
consistently describe the relationship of a given test script to an NFE business process.

Test activities and scenarios were missing from sampling scripts in SIT and UAT for
accounts payable, purchasing, asset management, and the general ledger. The missing
items noted also appeared applicable to compliance requirements of the FFMIA. Most
notably, UAT did not include testing the expenditure budget control function for the
Receivership Operations module, an essential requirement to achieve compliance with
FFMIA.

Finally, according to FDIC officials, there were no plans at this time for testing about 50-
70 customized FMS reports currently generated by the Walker general ledger. Access to
this same information in NFE was distributed across different modules and a different
chart of accounts. A strategy for obtaining these reports by priority level through NFE
had not been determined.

Cause:

NFE business processes for test script development were not standardized and relied on
the ability of the test facilitators and testers to develop appropriate plans to capture
                                            I - 12
business process activities and scenarios to test. NFE project officials stated that they did
not prescribe a formal structure so testers would have more leverage and flexibility in
developing test plans that would best fit their development and test needs. Users for each
respective area were involved in deciding which tests to perform for both SIT and UAT.

With respect to the budget control function testing, the FDIC budget process lead
indicated that this testing would be performed during UAT re-tests of core financial
modules.

Criteria:

GAO and OMB guidance states that government financial management systems shall
provide assurance that transactions can be processed in accordance with FFMIA
requirements. These requirements are applicable to key FMS functions, including
accounts payable, purchasing, disbursement, funds control, and general ledger processing.
JFMIP guidance also states that agencies need to consider performing supplemental
testing beyond qualification tests performed to ensure financial management systems
meet government and organizational requirements.

CMMI guidance on test validation practices states that UAT cases and procedures,
including operational scenarios and procedures, are applicable validation procedures that
warrant consideration to determine whether a system will function as intended in its
operational environment. Also, NIST test guidance states that test verification and
validation processes should be comprehensive. GAO’s Standards for Internal Control in
the Federal Government state that control activities such as tests of transactions for
system deployment should be well documented, maintained, and readily available for
examination.

Effect:

Independent verification of the effectiveness of business process activities tested and
software management oversight over those activities become cumbersome without a
formal and consistently applied process that provides information on a given business
process tested, activities to perform for that process, and related scenarios to test for each
activity.

Scenarios that were missing and untested may have impacted NFE system integrity in the
production of accurate and complete financial management reports. Consequently,
financial management and reporting risks may not have been mitigated to an acceptable
level.

In summary, the issues cited could impact NFE technical performance expectations,
operational capabilities, and users’ ability to apply new business processes.

Level of Risk: Medium

Recommendations Provided to FDIC for Consideration (February 16, 2005):
• Consider some level of production simulation testing for addressing missing test
   scenarios and any unidentified problems not sampled.

                                             I - 13
•   Develop more structured test development processes for better software test
    management and oversight of business process activities and scenarios to test.
•   Provide for more effective test documentation retention and control practices.
•   Elevate the priority of budget and commitment control testing to ensure that budget
    control features are accurately and completely tested within the appropriate time
    frame.




                                           I - 14
APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

Objective
The objective of this audit was to determine the adequacy of test plans and processes and
defect and change management processes in resolving problems identified during testing.
KPMG conducted its work audit work in Washington, D.C., and Dallas, Texas, from
November 1, 2004 through March 8, 2005 in accordance with generally accepted
government auditing standards.

Scope
The scope of coverage focused on test activities and processes critical to NFE
deployment, which included evaluating the following:
• Effectiveness of FDIC test activities policies and procedures applicable to NFE
   deployment.
• Accuracy and completeness of selected NFE core module test activities that had been
   performed.
• Test activities critical to final decisions on NFE’s deployment schedule that included
   SIT, UAT, and Independent Testing Performed by the CQMS.
• Test activities for three of eight selected NFE legacy interfaces considered critical to
   deployment that included the Controls Total Module (CTM) as the primary
   receivership and subsidiary financial reporting system, Electronic Travel Voucher
   (ETV), and Dividend Process System (DPS).
• Effectiveness of the test and defect management resolution processes. We also tested
   the effectiveness of the processes.

Methodology
KPMG performed the following in meeting audit objectives:
• Conducted interviews with DIT and DOF officials who were responsible for
  managing and implementing the NFE project and with representatives from
  Accenture LLP, the consulting firm hired by the FDIC to provide NFE
  implementation services, including the performance of system development test
  activities. To obtain an understanding of NFE test activities that had been performed,
  including procedures and practices, KPMG also spoke with end users from several
  divisions in the FDIC’s Headquarters and Dallas office to determine the adequacy of
  their involvement in test activities such as UAT.
• Identified applicable FDIC policies and procedures for performing NFE test activities.
• Performed gap analysis of FDIC policies and procedures for NFE test activities
  against generally accepted system development test activities performed (see
  Appendix B for applicable standards and guidelines).
• Sampled requirements for the NFE core systems and obtained related test plan and
  results documentation that was used in assessing the nature and extent of NFE test
  activities performed.
• Obtained and reviewed the test plan, results, and reconciliation process for CTM,
  DPS, and ETV systems.
• Observed UAT activities to assess the effectiveness of test activities performed for
  accounts payables, disbursements, purchase orders, and the general ledger.


                                           I - 15
                                                                           APPENDIX A

•   Identified and reviewed monitoring and oversight activities over the test and defect
    management resolution processes, including change management practices for
    addressing requirement changes.

KPMG also determined the risk levels for the NFE project where specific risks are likely
to occur.


Prior Audit Coverage

Prior to this audit, the FDIC OIG issued the following reports related to the NFE.

•   Audit Report No. 05-007 entitled, Management Controls Over the Re-baselined New
    Financial Environment Project, dated February 18, 2005, which addressed whether
    the FDIC had established adequate management control over the re-baselined NFE
    project.

•   Audit Report No. 03-045 entitled, New Financial Environment Scope Management
    Controls, dated September 29, 2003, which addressed whether the FDIC had
    implemented adequate controls for ensuring that the scope of the NFE project was
    effectively managed.

•   Audit Report No. 03-016 entitled, The New Financial Environment Project Control
    Framework, dated March 5, 2003, which addressed whether the FDIC had established
    a control framework for the NFE project.

•   Audit Report No. 03-002 entitled, Preaward Review of the New Financial
    Environment Project, dated October 7, 2002, which provided observations on selected
    procedures and documents related to the NFE Request for Proposal.

•   Evaluation Report No. 01-004 entitled, The New Financial Environment Project,
    dated December 7, 2001, which assessed the reasonableness of the NFE cost-benefit
    analysis and the financial systems architecture.




                                            I - 16
APPENDIX B: APPLICABLE STANDARDS AND GUIDANCE

The references listed herein represent applicable standards and guidance at the time of the
writing of this document that were considered in the performance of KPMG’s evaluation.
Some of the references are statutes and regulatory sources, whose provisions may or may
not be binding on the FDIC; see individual references for further information. Statutory
and regulatory sources that are not binding on the FDIC can provide statements of
prudent business practices. The Internet sites and various references appearing below are
subject to change.

Federal Statutes

Federal Financial Management Improvement Act (FFMIA), Pub. L. 104-208, 1996.
http://www.whitehouse.gov/omb/financial/ffs_ffmia.html

The statute requires agencies to implement and maintain financial management systems
that substantially comply with federal financial management system requirements. These
requirements are detailed in the Financial Management System Requirements series
issued by the JFMIP and in OMB Circular A-127, Financial Management Systems, and
OMB’s Implementation Guidance for the Federal Financial Management Improvement
Act (FFMIA) of 1996. The act does not apply to the FDIC, but its provisions and
standards contain prudent practices that the FDIC may choose to follow.

Systems Development Life Cycle (SDLC) Standards and Guidance

NIST Special Publication 500-234, Reference Information for the Software
Verification and Validation Process, April 1996.
http://hissa.nist.gov

The publication provides guidance for performing verification and validation activities to
comprehensively analyze and test software during development to determine that the
software performs its intended functions correctly, ensure that it performs no unintended
functions, and provide information about its quality and reliability.

Capability Maturity Model Integration (CMMI) for Systems Engineering, Software
Engineering, Integrated Product and Process Development, and Supplier Sourcing,
V1.1, March 2002.
http://www.se.cmu.edu/cmmi

The publication provides process management guidance for SDLC projects to include
best practices in performing activities related to software risk management, verification
and validation, change management, and defect management resolution.




                                            I - 17
                                                                          APPENDIX B

Financial Management System (FMS) Standards and Guidance

OMB Circular No. A-127, Financial Management Systems, July 1993.
http://www.whitehouse.gov/omb/circulars/a127/a127.html

The publication prescribes policies and standards for executive departments and agencies
to follow in developing, operating, evaluating, and reporting on financial management
systems.

Joint Financial Management Improvement Program (JFMIP), Forum Highlights:
System Implementation Success Factors Using COTS Financial Systems, JFMIP
Steering Committee and Chief Financial Officers’ Council, June 2003.
http://www.jfmip.gov/jfmip/otherreports.htm

The publication addresses critical success factors for successfully implementing COTS
software in discussions with senior federal financial managers, financial system program
managers, and private sector leaders.

OMB Memorandum for the Heads of Executive Departments and Establishments,
Chief Financial Officers, and Inspectors General – Revised Implementation
Guidance for the Federal Financial Management Improvement Act, January 2001.
http://www.whitehouse.gov/omb/financial/ffmia_implementation_guidance.pdf

Key provisions applicable to NFE testing of key FMS functions include the following:
• FMS shall consistently process common transactions throughout the financial system
   and shall consistently use and apply internal controls throughout the financial system.
• Assets shall be accounted for reliably so that they can be properly protected from loss,
   misappropriation, or destruction
• Budget execution is integrated in the core financial system with accounts payable,
   accounts receivable, and general ledger.
• Financial statements and other required financial and budget reports shall be prepared
   using information generated by the FMS.

U.S. GAO, Core Financial System Requirements, Checklist for Reviewing Systems
Under the Federal Financial Management Improvement Act, GAO/AIMD-00-21.2.2,
February 2000.
http://www.gao.gov/special.pubs/ai2122.pdf

The publication addresses FFMIA system integrity control compliance requirements.
Although the FDIC is not mandated to comply with FFMIA requirements, the FDIC
intends to voluntarily comply with such standards. Provisions applicable to NFE testing
would include, for example, the following:
• System performance data integrity validations such as reconciliations between
    produced reports and data sets within the system and the results of validity
    combination and balancing edits.


                                           I - 18
                                                                           APPENDIX B

•   Accurate and complete postings to the current and prior months concurrently until
    month-end closing. Accurate and complete balances must be maintained and
    accessible through on-line queries for both the current and prior fiscal years until
    year-end closing.
•   Adjustment of assets or expenses recorded with the liability if the authorized payment
    (based on the invoice) is different from the amount accrued (based upon receipt and
    acceptance) using contract information.
•   Payment Management Function (Accounts Payable/Purchasing)
    • Provides the capability to capture, store, and process appropriate invoice
        information in accordance with Department of the Treasury standards and, as
        necessary, to satisfy requirements of the Prompt Payment Act.
    • Provides the capability of splitting an invoice into multiple payments on the
        appropriate due dates when items on the invoice have different due dates.
    • Automatically updates funds control and budget execution balances.
    • Appropriately posts assets or expenses with the liability.
•   Funds Control Process (Funds Availability Editing)
    • Provides for on-line notification of funds availability prior to the distribution of
        lower-level funding and the processing of commitment, obligation, or expenditure
        transactions.
    • Checks commitment transactions against available funds.
    • Includes adequate controls to prevent the recording of commitments that exceed
        available balances.
    • Updates all appropriate accounts to ensure that the system always maintains and
        reports the current status of funds for all open accounting periods.

U.S. GAO, Standards for Internal Control in the Federal Government,
November 1999.
http://www.gao.gov/special.pubs/ai00021p.pdf

The publication defines the minimum level of quality acceptable for internal control in
government and provides the basis against which internal control is to be evaluated,
including documenting all transactions and other significant events. Documentation
should be readily available for examination including documentation on a wide range of
diverse activities, such as approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance of
related records that provide evidence of execution of these activities. The FDIC is not
mandated to but chooses to follow these practices.

FDIC/NFE Specific SDLC Standards and Guidance

The FDIC has issued several policies and procedures in managing NFE test activities,
including changes to requirements that can be viewed within the FDIC’s Digital Intranet
Library:
• DOF Corporate Applications Testing Strategy, version 2 (3/15/2004)
• DOF Corporate Applications SQT [system qualification test] Approach, version 4
    (6/10/2004)

                                           I - 19
                                                                     APPENDIX B

•   DOF Corporate Applications SIT Approach, version 3 (6/10/2004)
•   NFE User Acceptance Test Plan, version 2.0 (08/30/2004)
•   NFE SIT Test Plan, version 1.5 (06/18/2004)
•   Independent Test Plan for NFE, version 2.0 (09/22/2004)
•   NFEi Change Control Process




                                        I - 20
APPENDIX C: NFE TEST STRATEGY AND PROCESSES

The FDIC is replacing the existing Walker Interactive system with PeopleSoft financial
software. The implementation of the NFE will necessitate the retirement and
modification of interconnecting DOF corporate applications. To promote consistency in
testing for a quality product, the FDIC developed, defined, and documented testing
processes for implementing NFE. The strategies, tools, and processes defined for this
effort are described in this appendix.

Testing Overview

Testing is an essential part of the SDLC and a critical means for reducing software
delivery risks. Testing is a structured way of validating that business and performance
requirements, and use case specifications are properly implemented in a solution that
meets a customer’s functional, technical, operational, and maintenance expectations.

DOF testing for NFE has been divided into seven distinct stages. Each stage tests a
broader level of functional and technical complexity than the previous stage.
Accordingly, test conditions in each successive stage of testing are derived from
successively higher-level sources. For example, “low level” unit tests are derived from
the conditions specified in the detailed design, while “high level” unit tests are derived
from UAT conditions from the system requirements or use cases.

Such multi-stage testing is referred to as “V-Model” testing, which is illustrated in
Figure 1. The left side of the “V” indicates the source documents from which we derive
test cases. The right side of the “V” shows the stages of testing.

Figure 1. V-Model




Source: DOF Corporate Applications Testing Strategy, Version 2, March 15, 2004.




                                                I - 21
                                                                            APPENDIX C

The V-Model requires that each major deliverable is verified and validated in an attempt
to identify problems as early as possible and ensure that specifications are complete and
correct and adhere to relevant standards. Testing ensures that the specifications are
correctly implemented and that the solution meets the business and performance
requirements or use cases.

Test Stages

A stage refers to major development process steps in a project’s life cycle: planning
stage, requirements definition stage, design stage, development stage, test stage, etc. Also
there are different stages of tests: unit test stage, system qualification test (SQT) stage,
etc.

The V-Model diagram shows how the test stages align with the development stages. The
test planning tasks are performed on the left side of the V-Model within the plan,
requirements definition, design, and development stages. The test execution tasks appear
on the right side and belong to the development (unit test); test (SQT, performance, and
user acceptance tests); and implementation (operational readiness test) stages. The early
test execution tasks focus on confirming the high-level and detailed designs, and later
tasks focus on achieving overall functional and technical requirements. The test stages
for a project’s life cycle are described below.


Unit Test
The purpose of unit testing is to verify that the programming work units have correctly
implemented the detailed design specifications. Programming work units are the most
granular testable software components. Types of work units include windows, functions
or algorithms, and simple batch programs. Every line of code should be exercised, every
loop iterated, and all conditions tested at this stage. The scope of the test conditions
encompasses logical branches, limits, etc. All work units developed by the development
teams will be unit tested and where feasible, multiple, related work units will be tested
together.

Although a development team does not gather formal performance metrics at this stage, it
is the team’s responsibility to identify components that represent significant performance
risk.

Unit testing is the responsibility of the DIT application development teams and is
required for all new or modified code. Unit test planning and execution is the
responsibility of the programmer who coded the module to be tested and is performed in
the early part of the development stage when the detailed designs are finalized. The test
execution is performed by the developer/tester (in the development environment) in the
later part of the development stage after the application units are coded.




                                            I - 22
                                                                              APPENDIX C

System Qualification Test

The purpose of SQT is to verify that each of the applications, developed or modified,
functions as designed across all product business functions. SQT validates that the
requirements of each application have been met.

Unlike unit testing in which test conditions are derived based on design specifications,
SQT conditions are derived from business requirements and use case events that are
internal to a single application. The test team will initially use limited but realistic data,
testing basic functionality and gradually build complexity into the processes, testing more
realistic business scenarios with realistic data.

SQT will be the responsibility of the respective DIT application test teams and is required
for all new or modified code. The DIT test team, including DOF resources, will execute
the test for each application in the separate environment so that SQT activities and code
do not interfere with other activities and code in the development environment.
Interfaces to external systems may not be available at this stage of testing. However, if
external systems (or stub equivalents) are available, the test teams will test those during
SQT. Test teams, including DOF resources, perform SQT planning in the design stage
when the designs are created. The DIT test team executes the SQT in the test stage after
the developers complete the unit test.


System Integration Test
The purpose of SIT is to ensure that all business functions can be performed on an end-to-
end basis across the business applications and platforms. SIT verifies that the
applications interact correctly with each other and with their external interfaces.

Applications are eligible for migration to the SIT environment upon meeting all the
defined exit criteria of the SQT and entry criteria of the SIT. The test conditions are an
extension of the SQT conditions in that they will include full end-to-end business
processing and verification.

For purposes of the NFE program, SIT is the responsibility of the respective application
test teams coordinating with a central NFE test team and is required for all new or
modified code that interfaces with an external system. Each application team (both DIT
and DOF resources) will be responsible for testing its application and interfaces. SIT
planning is performed in the design stage when the high-level designs are created. The
test execution is performed in the test stage after successful completion of SQT. SIT will
be executed in a logically separate environment in the quality control and testing
environment. It is imperative to separate the code and activities of the SQT, SIT and
other test stages so that code from one environment does not interfere with code in
another environment or test stage.




                                             I - 23
                                                                             APPENDIX C

CQMS Test
The purpose of the CQMS test is the validation of the required business functions by an
impartial, independent testing group prior to the UAT. This test group analyzes and
assesses the application requirements and develops functional, standards, and
performance tests based on those requirements. The testing group executes and reports
on the tests and uses test results to determine the readiness of the application to proceed
to the next phase.

CQMS testing is the responsibility of the CQMS group and is executed in a separate
environment. Throughout the CQMS test, there is an open communication line to the
application project to receive requirement updates, provide frequent feedback in problem
reports, and collaborate on problem investigations. Application development and test
teams are not responsible for the test execution but are required to provide functional and
technical support throughout the testing.


User Acceptance Test
The purpose of UAT is to ensure that the users and stakeholders are satisfied with the
solution. Only after UAT is completed can the product be released. The UAT allows the
end users to complete one final review of the system prior to its deployment.

Applications are eligible for migration to the UAT environment upon meeting all the
defined exit criteria of the SIT and CQMS tests. The test conditions can be a subset of
the SIT conditions tailored for each representative user group.

UAT is the responsibility of the respective DIT test teams with test planning and
execution resources provided by the DOF end user community. UAT planning is
performed in the requirements definition stage during which user requirements are
defined. The test execution is performed in the test stage after successful completion of
SIT and CQMS tests. Test execution of UAT will take place in the QUAL environment.


Performance Test
The purpose of the performance test is to ensure that the system is capable of operating at
the load levels specified by the performance requirements and any agreed-upon service-
level agreement. This test will be performed in the presence of any operations that could
affect performance capabilities (as would occur in the production environment). These
operations include batch interfaces, overnight batch runs, on-line interfaces, user
interactions, etc. The DIT test team will monitor system performance across all areas of
the application functionality (on-line response times, batch job schedules), servers,
databases, networks, etc.

Applications are eligible for migration to the performance test environment after
successful completion of the SQT or SIT. This test may not be required for existing
legacy systems that are being modified. The application project manager and DIT

                                            I - 24
                                                                            APPENDIX C

representative will make a determination based on the scope and extent of the
modifications. If the changes are significant enough to impact service levels, a
performance test will be required. Specific performance test environment requirements
and assumptions will be documented in the Performance Test Approach document.

Performance testing is the responsibility of the DIT application teams with support from
the infrastructure group. Performance test planning is performed in the requirements
definition stage during which the performance requirements are defined. The test
execution is performed in the test stage in a separate environment that is a replica of the
production environment.


Operational Readiness Test (ORT)
The purpose of ORT is to test the production environment’s readiness to handle the new
system or changes. ORT verifies that the correct functionality, architecture, and
procedures are defined and implemented to allow production support teams to run,
maintain, and support the system in production. ORT may also involve verifying that the
system is correctly installed and configured in the production environment.

Applications are eligible for migration to the ORT environment after successful
completion of the UAT and performance tests. ORT may not be required for existing
legacy systems that are being modified. The application project manager and DIT
representative will make a determination based on the scope and extent of the
modifications. If the changes are significant enough to affect operational procedures,
ORT will be required.

ORT is the responsibility of the DIT application teams with support from the operations
and maintenance groups. ORT test planning is performed and executed in the
implementation stage.

Testing Activities
The application teams will execute the same steps for all stages of testing. The following
activities are common to all stages of testing:

•   “Develop test approach” provides the objectives, schedule, environment
    requirements, and entry and exit criteria for the test stage.
•   “Plan test” identifies test conditions and test cycles for the test stage.
•   “Prepare test” defines input data and expected results, scripts the test cycles, defines
    stubs and job streams, and prepares the cycle control calendar.
•   “Establish test environment” ensures that the environment is established and tested
    before test execution.
•   “Execute test” performs the scripts contained in the test model, compares the actual
    results to the expected results, and identifies and resolves discrepancies.

                                            I - 25
APPENDIX D: RISK ASSESSMENT APPROACH

Risk Ratings
Per CMMI and industry standard practices, software projects should establish a risk
management strategy that includes the categorization of identified risks in order to
develop a mitigation strategy that reduces risks to levels acceptable to management.
KPMG assessed the potential impact of risks identified in this review based on
professional judgment and applicable risk management criteria defined for the NFE
project by the FDIC. The NFE project assesses risks based on probability of occurrence
and impact as follows:

Probability
The likelihood of risk occurrence is quantitatively or qualitatively rated on the following
scale:
       Probability                 Uncertainty Statement                  Evaluation of
                                                                       Impact (see Impact)
          > 80%                    Extreme, Almost certain                       5
        61%-80%                          High, Likely                            4
        41%-60%                            Medium                                3
        21%-40%                               Low                                2
         1%-20%                  Very Low, Highly unlikely                       1

Impact
Impact is an estimate of the overall scale of the impact following an occurrence of each
risk. Impact measures the severity of adverse affects, or the magnitude of a loss, if the
risk comes to pass and is rated on the following scale:
        5 - Critical impact; threatens overall success of NFE on a long-term basis.
        4 - High impact; significant disruption to successful delivery of NFE objectives,
products, and benefits.
        3 - Medium impact; significant disruption to NFE schedule, cost, and products
over the medium term.
        2 - Low impact; progress disrupted with moderate to low extensions to schedule
and cost, across short term.
        1 - Very low impact; slight exposure.

The two variables, impact and probability, are combined to assess the overall risk
category as displayed in Figure 2.




                                            I - 26
                                                                               APPENDIX D

Figure 2: Risk Assessment Matrix
        Impact

     5 – Critical
     4 – High                                                          3

     3 – Medium                                 2

     2 – Low              1

     1 – Very Low
                     Very Low  Low     Medium    High    Extreme
                     0 – 20% 21 – 40% 41 – 60% 61 – 80% 81 – 100%
                                           Probability
Source: The FDIC New Financial Environment Risk Management Plan developed by Accenture.

Risk categorization is based on factors where specific risks are likely to occur, including
resource/cost, schedule, technical, operational, and external. Overall risks assigned by
KPMG focused on issues impacting the FDIC’s ability to achieve NFE objectives from
both a technical and operational nature. These factors, referred to as risk drivers, may
impact both Cost and Schedule risks.

Each risk is described further below:

Technical
Technology-based risks consider the non-achievement of the application specifications
and benefits expected. These risks include new and non-standard platform technology,
integration problems with existing systems, migration problems, performance
expectations not achieved, environment complexity and functionality, and system
operability.

Operational
Operational-based risks focus on the peripheral organizational and business operational
re-engineering changes arising from the NFE implementation effort. These risks consider
both the transitional and the long-term effects of the NFE’s introduction, including the
organizational and behavioral changes required, the human and physical resource
planning, and communication required to facilitate a smooth transition to the new
structure.

External
External-based risks consider the environmental factors largely outside of the control of
the NFE Project Management that can directly or indirectly affect the successful delivery
of the NFE. Risks arising from legislative regulations, legal requirements, and the
strategic direction and priority conflicts of a controlling body are profiled under this
category.



                                              I - 27
                                                                           APPENDIX D

Resource/Cost
Cost-based risks outline the non-achievement of the financial benefits of NFE. These
cost risks include additional costs in changing or solving design, application program, or
operational problems.

Schedule
Schedule-based risks focus on the non-achievement of the biggest system benefits within
the specified time frame. These schedule-based risks arise from extensions as a result of
scope changes, resource unavailability, and additional schedule extensions for solving the
risks as discussed earlier in Resource/Cost.




                                            I - 28
APPENDIX E: ACRONYMS

  Acronyms   Definition
CCB          Change Control Board
CCR          Central Contractor Registry
CMMI         Capability Maturity Model Integration
COTS         Commercial-off-the-shelf
CQMS         Configuration and Quality Management Staff
CTM          Control Totals Module
DIT          Division of Information Technology
DOA          Division of Administration
DOF          Division of Finance
DPS          Dividend Processing System
DRR          Division of Resolutions and Receiverships
ETV          Electronic Travel Voucher
FDIC         Federal Deposit Insurance Corporation
FDL          FDIC’s Digital Library
FFMIA        Federal Financial Management Improvement Act
GAO          Government Accountability Office
JFMIP        Joint Financial Management Improvement Program
NFE          New Financial Environment
NIST         National Institute of Standards and Technology
OERM         Office of Enterprise Risk Management
OIG          Office of Inspector General
OMB          Office of Management and Budget
SIT          Systems Integration Testing
SQT          Systems Qualifications Testing
UAT          User Acceptance Testing




                                   I - 29
                Part II

Corporation Comments and OIG Evaluation
CORPORATION COMMENTS AND OIG EVALUATION

The report contains one recommendation directed to the Director, DOF, and to the NFE project
management team. The Director, DOF, provided a written response to the draft report on
May 18, 2005. Management’s response is presented, in its entirety, beginning on page II-2.
DOF management concurred with the recommendation. Based on management’s response, the
report’s recommendation is considered resolved, disposition, and closed. DOF’s response to the
report recommendation is summarized below, along with our evaluation of the response.

Recommendation: KPMG recommends that the Director, DOF, and the NFE project
management team review the risks identified and develop a risk resolution and action approach
in accordance with the risk mitigation procedures outlined in the NFE risk management plan.

DOF Response: DOF concurs with the recommendation to review the risks identified in the
draft of the report and to develop a risk resolution and action approach. As OIG findings and
recommendations were received, NFE project management reviewed and discussed the input in
light of overall project risks and other mitigating efforts. Using the Summary of Findings table
in the draft of this report as a guide, NFE project management developed a risk assessment
matrix, submitted with DOF’s response, to summarize management’s conclusions of the
identified conditions. DOF also responded that the NFE control framework afforded a high
degree of confidence that a “go live” decision was appropriate under the circumstances.

OIG Evaluation of Response: The risk assessment matrix summarizes the risk resolution and
action approach for the conditions discussed in the report. The action effectively implements our
recommendation. We consider the recommendation resolved, dispositioned, and closed.

The risk assessment matrix also includes updated Level of Risk information showing that the
high and medium risks of reported conditions have been reduced since the completion of field
work on March 8, 2005. The risk levels could have been reduced through additional testing in
response to our early notifications to the NFE management team regarding potential weaknesses
and through additional planned tests to be conducted after audit field work. However, we did not
perform additional work to validate the Level of Risk information.




                                               II-1
Appendix III
II-3
II-4
II-5
II-6
II-7
II-8
                                                         MANAGEMENT RESPONSE TO RECOMMENDATION

         This table presents the management response on the recommendation in our report and the status of the recommendation as of the date
         of report issuance.


                                                                                                                                                   Open
                                                                      Expected           Monetary        Resolved:a      Dispositioned:             or
                                                                                                                          b
                      Corrective Action: Taken or                    Completion          Benefits        Yes or No          Yes or No             Closedc
                              Planned/Status                            Date
               As OIG findings and recommendations
               were received, NFE project management
               reviewed and discussed the input in light
               of overall project risks and other                     Completed             N/A              Yes                Yes                Closed
II - 9




               mitigating efforts. DOF reviewed the
               risks identified in the draft report and
               developed a risk assessment matrix to
               summarize management’s conclusions of
               the identified conditions.
         a
             Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                         (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                         (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                            management provides an amount.
         b
          Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
         implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.
         c
             Once the OIG dispositions the recommendation, it can then be closed.
